~ ~
  ~ SERVICES.

.."'~+' .:

~~
~""'t,7:
                                           DEPARTMENT OF HEALTH AND HUMAN SERVICES
                                                              OFFICE OF AUDIT SERVICES
                                                             233 NORTH MICHIGAN AVENUE
                                                               CHICAGO, ILLINOIS 60601
                                                                                                                  REGION
                                                                                                                OFFICE OF
                                                                                                                           V
                                                                                                           INSPECTOR GENERAL


                                                                 February 6, 2009


         Report Number: A-05-08-00063

         Mr. Barry S. Maram
         Director
         Department of Healthcare and Family Services
         201 South Grand Avenue East, Third Floor
         Springfield, Ilinois 62763

         Dear Mr. Maram:

         Enclosed is the U.S. Department of                  Health and Human Services (HHS), Offce ofInspector
                                                         Medicaid Credit Balances at Mercy Hospital as
           General (OIG), final report entitled "Review of

           of April 1,2008." We wil forward a copy of  this report to the HHS action official noted on the
           following page for review and any action deemed necessary.

           The HHS action official wil make final determination as to actions taken on all matters reported.
           We request that you respond to this official within 30 days from the date of this letter. Your
           response should present any comments or additional information that you believe may have a
           bearing on the final determination.

           Pursuant to the Freedom ofInformation Act, 5 U.S.C. § 552, OIG reports generally are made
           available to the public to the extent that information in the report is not subject to exemptions in
           the Act. Accordingly, this report wil be posted on the Internet at http://oig.hhs.gov.

           If you have any questions or comments about this report, please do not hesitate to call me, or
           contact Stephen Slamar, Audit Manager, at (312) 353-7905 or through e-mail at
           Stephen.SlamaraYoig.hhs.gov. Please refer to report number A-05-08-00063 in all
           correspondence.
                                                      Sincerely,


                                                                    ~G~
                                                                     Region1(~~~~~tor General
                                                                      for Audit Service


           Enclosure
Page 2 - Mr. Barry S. Maram


Direct Reply to HHS Action Official:

Jackie Garner, Consortium Administrator
Consortium for Medicaid and Children's Health Operations
Centers for Medicare & Medicaid Services
233 North Michigan Avenue, Suite 600
Chicago, Ilinois 60601
Department of Health and Human Services
               OFFICE OF
          INSPECTOR GENERAL




  REVIEW OF MEDICAID CREDIT
     BALNCES AT MERCY
       HOSPITAL AS OF
                           APRIL i, 2008




                      ~, SERVICEs


           'f.:..+'t"g'Ú.J-t
                                    Daniel R. Levinson
                                     Inspector General

        Ó ~E
        g
        ....
        :i

               "1-.¡~
                     .l(¡Vd30
                                      February 2009
                                      A -05-08-00063
                             Offce of Inspector General
                                             http:// oig.hhs.gov




The mission of the Office ofInspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity ofthe Department of Health and Human Services (HHS)
programs, as well as the health and welfare of beneficiaries served by those programs. This
statutory mission is carried out through a nationwide network of audits, investigations, and
inspections conducted by the following operating components:

Office of Audit Services

The Offce of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits examine
the performance of HHS programs and/or its grantees and contractors in carrying out their
respective responsibilities and are intended to provide independent assessments of HHS
programs and operations. These assessments help reduce waste, abuse, and mismanagement and
promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections

The Office of        Evaluation and Inspections (OEI) conducts national evaluations to provide HHS,
Congress, and the public with timely, useful, and reliable information on significant issues.
These evaluations focus on preventing fraud, waste, or abuse and promoting economy,
effciency, and effectiveness of departmental programs. To promote impact, OEI reports also
present practical recommendations for improving program operations.

Offce of Investigations
The Offce of Investigations (01) conducts criminal, civil, and administrative investigations of
fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, 01 utilizes its resources by
actively coordinating with the Department of Justice and other Federal, State, and local law
enforcement authorities. The investigative        efforts of 01 often lead to criminal convictions,
administrative sanctions, and/or civil monetary penalties.

 Office of Counsel to the Inspector General

The Offce of   Counsel to the Inspector General (OCIG) provides general legal services to OIG,
 rendering advice and opinions on HHS programs and operations and providing all legal support
 for OIG's internal operations. OCIG represents OIG in all civil and administrative fraud and
 abuse cases involving HHS programs, including False Claims Act, program exclusion, and civil
 monetary penalty cases. In connection with these cases, OCIG also negotiates and monitors
 corporate integrity agreements. OCIG renders advisory opinions, issues compliance program
 guidance, publishes fraud alerts, and provides other guidance to the health care industry
 concerning the anti-kickback statute and other OIG enforcement authorities.
                             Notices

       THIS REPORT IS AVAILABLE TO THE PUBLIC
                 at http://oig.hhs.gov

Pursuant to the Freedom of Information Act, 5 U.S.C. § 552, Office of
Inspector General reports generally are made available to the public to
the extent that information in the report is not subject to exemptions in
the Act.



 OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

The designation of financial or management practices as questionable, a
recommendation for the disallowance of costs incurred or claimed, and
any other conclusions and recommendations in this report represent the
findings and opinions of OAS. Authorized officials of the HHS operating
divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid Services (CMS) administers the program. Each State
administers its Medicaid program in accordance with CMS-approved State plan. Although the
State has considerable flexibility in designing and operating its Medicaid program, it must
comply with applicable Federal requirements. The Illinois Department of Healthcare and Family
Services (the State agency) is responsible for administering the Illinois Medical Assistance
Program (Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives
payments for the same service from the Medicaid program or another third-party payer. In such
cases, the provider should return the existing overpayment to the Medicaid program, which is the
payer of last resort.

Federal Regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” implements section 1903(d)(2)(C) and (D) of the Act requiring States to adjust any
outstanding credit balances within 60 days after notification by a provider that a credit balance
exists. The State agency does not have any regulations in place requiring providers to refund
Medicaid credit balances within a specific time frame.

Mercy Hospital and Medical Center (Mercy) is a 449-bed, acute-care hospital located in
Chicago, Illinois. The State agency reimbursed Mercy approximately $32 million for Medicaid
services during calendar year 2007.

OBJECTIVE

Our objective was to determine whether the Medicaid credit balances recorded in Mercy’s
accounting records for inpatient and outpatient services represented overpayments that Mercy
should have returned to the Medicaid program.

SUMMARY OF FINDINGS

As of April 1, 2008, Mercy’s Medicaid credit balances included 10 overpayments totaling
$18,720 ($9,360 Federal share) that had not been returned to the Medicaid program. For 5 of the
10 overpayments, the ages ranged from 61 to 718 days. Mercy acknowledged overpayments
occurred because its credit balance review procedures lacked edits for each adjustment code and
it did not adequately reconcile accounts where Medicaid was the secondary payer.

We verified that Mercy refunded 8 of the 10 overpayments to the State agency as of
October 31, 2008.


                                              i
RECOMMENDATIONS

We recommend that the State Agency:

   •	 refund to the Federal Government the $9,360 paid to Mercy for Medicaid overpayments
      and

   •	 work with Mercy to revise its procedures and implement training to ensure that credit
      balances are reviewed and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency confirmed that all adjustments to
recover the credit balances were processed and resulted in offsets to future payments to Mercy.
The State agency’s comments are included in their entirety as the Appendix.




                                              ii
                                           TABLE OF CONTENTS 

                                                                                                              Page

INTRODUCTION..................................................................................................1


          BACKGROUND .........................................................................................1 


          OBJECTIVE, SCOPE, AND METHODOLOGY .......................................1 

               Objective ..........................................................................................1       

               Scope………………………………………………………………1                                                                              

               Methodology……………………………………………………… 2                                                                          


FINDINGS AND RECOMMENDATIONS ........................................................2


          FEDERAL MEDICAID REQUIREMENTS...............................................3                                


          OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING 

           OVERPAYMENTS ..................................................................................3 


          RECOMMENDATIONS……………………………………………….....3 


          STATE AGENCY COMMENTS……………………………………........4 


APPENDIX

          STATE AGENCY COMMENTS




                                                          iii
                                      INTRODUCTION 


BACKGROUND

Pursuant to Title XIX of the Social Security Act (the Act), the Medicaid program provides
medical assistance to low-income individuals and individuals with disabilities. The Federal and
State Governments jointly fund and administer the Medicaid program. At the Federal level, the
Centers for Medicare & Medicaid (CMS) administers the program. Each State administers its
Medicaid program in accordance with a CMS-approved State plan. Although the State has
considerable flexibility in designing and operating its Medicaid program, it must comply with
applicable Federal requirements. The Illinois Department of Healthcare and Family Services
(the State agency) is responsible for administering the Illinois Medical Assistance Program
(Medicaid).

Credit balances generally occur when the reimbursement that a provider receives for services
provided to a Medicaid beneficiary exceeds the charges billed, such as when a provider receives
a duplicate payment for the same service or another third-party payer. In such cases, the
provider should return the existing overpayment to the Medicaid program, which is the payer of
last resort.

Federal Regulations at 42 CFR 433 subpart F, “Refunding the Federal Share of Overpayments to
Providers,” implements section 1903(d)(2)(C) and (D) of the Act requiring States to adjust any
outstanding credit balances within 60 days after notification by a provider that a credit balance
exists. The State agency does not have any regulations in place requiring providers to refund
Medicaid credit balances within a specific time frame.

Mercy Hospital and Medical Center (Mercy) is a 449-bed, acute-care Mercy located in Chicago,
Illinois. The State agency reimbursed Mercy approximately $32 million for Medicaid services
during calendar year 2007.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether the Medicaid credit balances recorded in Mercy’s
accounting records for inpatient and outpatient services represented overpayments that Mercy
should have returned to the Medicaid program.

Scope

As of April 1, 2008, Mercy’s accounting records contained 140 credit balance accounts totaling
$98,931 with Medicaid listed as primary payer. We determined that 42 of the 140 accounts
included Medicaid overpayments. Our review of overpayments included 33 outpatient accounts
totaling $3,552 and 9 inpatient accounts totaling $22,525.




                                              1

Additionally, as of April 1, 2008, Mercy’s accounting records contained Medicaid credit
balances, where Medicaid was the secondary payer. Limiting our review to accounts with credit
balances greater than $3,000, we reviewed 139 credit balance accounts totaling $1,098,251. Of
these 139 credit balance accounts, 21 contained Medicaid overpayments totaling $31,264. Our
review of overpayments included 7 outpatient accounts totaling $15,779 and 14 inpatient
accounts totaling $15,485.

We limited our review of internal controls to obtaining an understanding of the policies and
procedures that Mercy used to review credit balances and report overpayments to the Medicaid
program. This understanding was for the purpose of accomplishing our objective and not to
provide assurance of the internal control structure.

We performed our fieldwork from March through May 2008 at Mercy located in Chicago,
Illinois.

Methodology

To accomplish our objective, we:

   •	 reviewed Federal and State requirements related to Medicaid credit balances;

   •	 identified and reconciled Mercy’s Medicaid credit balances to its accounting records as of
      April 1, 2008;

   •	 reconciled Mercy’s April 1, 2008 credit balance list to the accounts receivable records,
      and reconciled the accounts receivable records to the trial balance;

   •	 reviewed patient payment data, Medicaid claim forms and remittance advices, patient
      accounts receivable detail and additional supporting documentation for each credit
      balance account; and

   •	 coordinated our audit with officials from the State agency.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

As of April 1, 2008, Mercy’s Medicaid credit balances included 10 overpayments totaling
$18,720 ($9,360 Federal share) that had not been returned to the Medicaid program. For 5 of the
10 overpayments, the ages ranged from 61 to 718 days. Mercy acknowledged overpayments
occurred because its credit balance review procedures lacked specific edits for each adjustment
code and it did not adequately reconcile accounts where Medicaid was the secondary payer.


                                             2

FEDERAL MEDICAID REQUIREMENTS

Pursuant to 42 CFR 433 Subpart F, “Refunding the Federal Share of Overpayments to Providers”
which implements section 1903(d)(2)(C) and (D) of the Act, States are required to adjust any
outstanding credit balances. The regulation is based on the statutory requirements contained in
the Omnibus Reconciliation Act of 1985 (Public Law 99-272), section 9512, which requires
States to adjust any outstanding credit balances within 60 days after notification by a provider
that a credit balance exists.

In accordance with Federal regulations, the provider must request an adjustment or refund the
amount to the State agency after its identification. Subsequently, the State agency must adjust
the applicable claim or recover the amount of the Medicaid overpayment within 60 days of
notification. The State agency does not have any regulations in place requiring providers to
refund Medicaid credit balances within a specific time frame.

OUTSTANDING CREDIT BALANCE ACCOUNTS CONTAINING OVERPAYMENTS

For 10 credit balances, Mercy had not returned Medicaid overpayments totaling $18,720 ($9,360
Federal share) to the Medicaid program. As of April 1, 2008, Mercy had Medicaid credit
balances with ages that ranged from 6 to 718 days, as the following table summarizes.

                                 Ages of Overpayments
                               Number
                    Days          of         Overpayment        Federal
                               Accounts        Amount            Share
                1-60              5            $10,484          $ 5,242
                61-90             3              4,623            2,312
                91-180            1              3,432            1,716
                181-717           1                181               90
                Total             10           $18,720          $ 9,360

Mercy acknowledged overpayments occurred because its credit balance review procedures
lacked specific edits for each adjustment code and it did not reconcile accounts where Medicaid
was the secondary payer.

We verified that Mercy refunded 8 of the 10 overpayments to the State agency as of
October 31, 2008.

RECOMMENDATIONS

We recommend that the State agency:

   •	 refund to the Federal Government the $9,360 paid to Mercy for Medicaid overpayments
      and



                                              3

   •	 work with Mercy to revise its procedures and implement training to ensure that credit
      balances are reviewed and overpayments are returned to the Medicaid program.

STATE AGENCY COMMENTS

In written comments to our draft report, the State agency confirmed that all adjustments to
recover the credit balances were processed and resulted in offsets to future payments to Mercy.
The State agency’s comments are included in their entirety as the Appendix.




                                              4

APPENDIX 

APPENDIX 

